 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




     MARYLAND CLAIMED MEDICAID
ADMINISTRATIVE COSTS FOR UNALLOWABLE
 REMEDIAL AND TRAINING SERVICES FOR
    THE MARYLAND POISON CENTER




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov. 
                                           




                                                    Stephen Virbitsky
                                                Regional Inspector General

                                                      September 2012
                                                       A-03-12-00204
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig .hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX ofthe Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for M-e-dicare & M-e-dic-aid S-ervic-e-s-(CMS)-admirristers the-program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Maryland, the Department of Health and
Mental Hygiene (State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be "for the proper and efficient administration of the State
plan." In a December 1994 letter to State Medicaid directors, CMS (formerly the Health Care
Financing Administration) clarified its position on State claims for administrative costs, stating
that "allowable claims ... must be directly related to the administration of the Medicaid
program." CMS' s letter included a listing of allowable administrative activities. The list was
not all inclusive, but stated that claims for administrative costs cannot "reflect the cost of
providing a direct medical or remedial service, such as immunizations or psychological
counseling." In addition, CMS stated that States "may not include funding for a portion of
general public health initiatives that are made available to all persons, such as public health
education campaigns ... " and "may not include the overhead costs of operating a provider
facility, such as the supervision and training of providers."

In calendar years (CY) 2009 through 2011, the State agency claimed $860 million in Medicaid
administrative costs, of which $690 million was claimed as "Other Financial Participation." We
are conducting a series of audits that address unidentified Medicaid administrative costs claimed
as Other Financial Participation.

The Maryland Poison Center (Poison Center) provides emergency poison triage and treatment
information through a telephone hotline staffed by pharmacists and nurses certified by the
American Association of Poison Control Centers. The Poison Center also provides public
education to increase awareness of poisons in the home, business, and schools and to identify
steps in poison prevention, and professional education to help clinicians assess and treat poison­
related cases.

The Poison Center has been a service program ofthe University of Maryland School of
Pharmacy since 1972. In January 1994, the State agency asked CMS for permission to claim
Poison Center services provided to Medicaid beneficiaries as a Medicaid administrative cost. In
February 1994, CMS granted its approval to the State agency for its claiming methodology. In
CYs 2009 through 2011, the State agency claimed $728,915 (Federal share) in Poison Center
costs as a Medicaid administrative cost.
OBJECTIVE 


Our objective was to determine whether the State agency complied with Federal requirements
when it claimed Medicaid administrative costs for the Poison Center.

SUMMARY OF FINDING

The State agency did not comply with Federal requirements when it claimed Poison Center costs
totaling $728,915 (Federal share). The claimed costs were for unallowable remedial and training
services and not for the administration of the Medicaid program. In February 1994, CMS
approved the State agency's methodology for claiming Poison Control costs even though the
costs did not relate to administration ofthe Medicaid program. However, in its subsequent
December 1994 letter to all State Medicaid directors, CMS clarified its position on State
claiming of Medicaid administrative costs and specifically excluded remedial services, public
education, and provider training from allowable costs. Accordingly, the State agency should
have discontinued claiming administrative costs for the Poison Center based on CMS' general
instructions in the December 1994 letter.

RECOMMENDATION

We recommend that the State agency discontinue all future claims for Poison Center costs.

STATE AGENCY COMMENTS

In its written comments on our report, the State agency said that, going forward, it would comply
with CMS' s directions regarding the claiming of Poison Center costs.

The State agency's comments are presented in their entirety as Appendix B.




                                                11
                                                     TABLE OF CONTENTS 




INTRODUCTION ............................................................................................................. 1 


     BACKGROUND ......................... •.............. ... .. ... .. ............ ............................................. 1 

       Medicaid Program ............. ........................ ................................... ... ........ .......... .... .. 1 

       Maryland Poison Center ...... ................... ........ ..... ....... .................. .... .. ................ ..... 1 

       Audits of the Medicaid Administrative Costs ............... ... .... .... ...... ............... ..........2 


     OBJECTIVE, SCOPE, AND METHODOLOGY ....................................... .................. 2 

       Objective .............................................. .... ......................................... .. ..................... 2 

       Scope .............................................. .. .......... ....................................... ...................... 2 

       Methodology ... ............................................... ............................................ .............. 2 


FINDING AND RECOMMENDATION ........................................................ ..... ............ 3 


     FEDERAL REQUIREMENTS ................. .. ............................................. ..................... 3 


     POISON CENTER COSTS CLAIMED ...................................................... .................. 3 

        The State Agency' s Methodology for Claiming Poison Center Costs .................... 3 

        The State Agency' s Claims for Poison Center Costs ... ........... ....... ... ....... ..... ........ ..4 


     RECOMMENDATION ... ........................................................... .. ..... .. .. ..... ........ ..... ... ...4 


     STATE AGENCY COMMENTS .... ... .... ...... ....... ...................... .... ......... ...... ...... .. .........4 


APPENDIXES

     A: PREVIOUSLY ISSUED REPORTS RELATED TO THIS AUDIT

     B: STATE AGENCY COMMENTS




                                                                         111
                                               INTRODUCTION 


BACKGROUND

M edicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Maryland, the Department of Health and Mental
Hygiene (State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be "for the proper and efficient administration of the State
plan." Most Medicaid administrative costs are reimbursed at the 50-percent rate (section 1903(a)(7)
of the Act). However, the State agency may receive enhanced Federal funding for some
administrative costs, including 75 percent for skilled professional medical personnel. States claim
medical assistance and administrative costs on Form CMS-64, Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (Form CMS-64).

In a December 1994 letter to State Medicaid directors, CMS I clarified its position on State
claims for administrative costs, stating that "allowable claims ... must be directly related to the
administration of the Medicaid program." CMS's letter provided a list of allowable
administrative activities, but it was not all inclusive. The letter also stated that claims for
administrative costs cannot "reflect the cost of providing a direct medical or remedial service,
such as immunizations or psychological counseling." In addition, CMS ' s letter stated that States
"may not include funding for a portion of general public health initiatives that are made available
to all persons, such as public health education campaigns ... " and "may not include the overhead
costs of operating a provider facility, such as the supervision and training of providers."

Maryland Poison Center

The Maryland Poison Center (Poison Center) provides emergency poison triage and treatment
information through a telephone hotline staffed by pharmacists and nurses certified by the
American Association of Poison Control Centers. In 2010, the Poison Center received 62,820
calls to its hotline, including 35,895 reports of human exposure, 24,944 requests for information,
and 1,981 reports of exposures in animals. The Poison Center provides public education to
increase awareness of poisons in the home, business, and schools and to identify steps in poison
prevention and professional education to help clinicians assess and treat poison-related cases.



I   The letter was issued by the Health Care Financing Administration, which was renamed CMS on July 1, 2001 .


                                                          1

The Poison Center has been a service program of the University of Maryland School of
Pharmacy since 1972. In January 1994, the State agency asked CMS for permission to claim
Poison Center services provided to Medicaid beneficiaries as a Medicaid administrative cost. In
February 1994, CMS granted its approval to the State agency for its claiming methodology.

Audits of Medicaid Administrative Costs

In calendar years (CY) 2009 through 2011 , the State agency claimed $860 million in Medicaid
administrative costs, of which $690 million was claimed as "Other Financial Participation." This
is one in a series of reports addressing State agencies' claims for Medicaid administrative costs
claimed as "Other Financial Participation." The appendix lists the three previously issued
reports, which focused on programs in Pennsylvania that did not comply with the Federal
requirements for claiming Medicaid administrative costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements
when it claimed Medicaid administrative costs for the Poison Center.

Scope

We reviewed the State agency' s claims totaling $728,915 (Federal share) in Poison Center costs
for calendar years 2009 through 2011. We did not review the overall internal control structure of
the State agency. We limited our review to those controls related to the State agency' s
methodology for claiming Poison Center costs.

We performed our fieldwork at the State agency in Baltimore, Maryland, in March 2012.

Methodology

To accomplish our objective, we:

   • 	 reviewed Federal laws and guidance;

   • 	 reconciled the State agency's claim for Other Financial Participation costs on Form
       CMS-64 to its accounting records;

   • 	 reviewed Maryland' s public assistance cost allocation plan to determine if the State
       agency received approval for claiming costs reported under Other Financial Participation;

   • 	 reviewed the State agency's supporting documentation for its claim of Poison Center
       costs; and

   • 	 discussed our findings with CMS and State agency officials.

                                                2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

The State agency did not comply with Federal requirements when it claimed Poison Center costs
totaling $728,915 (Federal share). The claimed costs were for unallowable remedial and training
services and not for the administration of the Medicaid program. In February 1994, CMS
approved the State agency's methodology for claiming Poison Control costs even though the
costs did not relate to administration of the Medicaid program. However, in a subsequent
December 1994 letter to all State Medicaid directors, CMS clarified its position on State claims
of Medicaid administrative costs and specifically excluded remedial services, public education,
and provider training from allowable costs. Accordingly, the State agency should have
discontinued claiming administrative costs for the Poison Center based on CMS ' general
instructions in the December 1994 letter.

FEDERAL REQUIREMENTS

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be "for the proper and efficient administration of the State
plan." CMS' s December 1994 letter to State Medicaid directors (# 122094) clarifies CMS' s
policy concerning State claims for administrative costs. CMS states: "We have consistently
held that allowable claims under this authority must be directly related to the administration of
the Medicaid program."

Although not all inclusive, CMS's list of allowable Medicaid administrative activities provided
for Medicaid eligibility determinations, Medicaid outreach, prior authorizations for Medicaid
services, third-party liability activities, and utilization reviews. In addition, CMS stated that
allowable administrative costs "cannot reflect the cost of providing a direct medical or remedial
service, such as immunizations or psychological counseling." CMS also stated that States "may
not include funding for a portion of general public health initiatives that are made available to all
persons, such as public health education campaigns . .. " and "may not include the overhead costs
of operating a provider facility, such as the supervision and training of providers."

POISON CENTER COSTS CLAIMED

The State Agency's Methodology for Claiming Poison Center Costs

In February 1994, CMS approved the State agency' s proposed methodology to allocate Poison
Control costs. Each quarter, the Poison Center asks a sample number of callers whether they are
Medicaid beneficiaries. The Poison Center estimates the number of Medicaid beneficiaries
served for the quarter based on the number of Medicaid respondents as a percentage of total
callers in the sample. (For CYs 2009 through 2011 , estimates for Medicaid callers ranged from


                                                  3

8.41 percent to 17.99 percent.) The Poison Center applies the percentage to the costs of the
program and submits to the State agency its claim for the Medicaid portion ofthe costs.

The State Agency's Claims for Poison Center Costs

In CY s 2009 through 2011, the State agency claimed $728,915 (F ederal share) in Poison Center
costs as Medicaid administrative costs: $332,235 (Federal share) claimed on Form CMS-64.1O,
line 29, Other Financial Participation, and $396,680 (Federal share) claimed at the enhanced rate
on Form CMS-64.1 0, line 3A, SPMP [skilled professional medical personnel] - Single State
Agency.

The State agency's claims did not reflect administrative costs as defined in the Act and later
clarified by CMS in its letter to State Medicaid directors. Rather, Poison Center costs were for
hotline operation and public and professional education. CMS explicitly prohibits claiming costs
for remedial services and training, such as that supplied by the Poison Center, as administrative
costs because they are not "for the proper and efficient administration of the [Medicaid] State
plan."

The State agency initially claimed the unallowable costs because CMS granted its approval in
February1994. However, CMS later clarified its position on State claims of Medicaid
administrative costs. In a December 1994 letter to all State Medicaid directors, CMS stated that
claims for administrative costs may not include remedial services, public education, or provider
training. Accordingly, the State agency should have discontinued its claims for the Poison
Center's unallowable remedial and training services.

RECOMMENDATION

We recommend that the State agency discontinue all future claims for Poison Center costs.

STATE AGENCY COMMENTS

In its written comments on our report, the State agency said that, going forward, it would comply
with CMS' s directions regarding the claiming of Poison Center costs.

The State agency' s comments are presented in their entirety as Appendix B.




                                                4

APPENDIXES 

    APPENDIX A: PREVIOUSLY ISSUED REPORTS RELATED TO THIS AUDIT

Review ofMedicaid Administrative Costs Claimed for the Pennsylvania Department ofAging 's
Healthy Steps Program (A-03-10-00205, issued July 13,2011).

Review ofMedicaid Administrative Costs Claimed for the Pennsylvania Department ofAging's
Direct Care Worker Initiative (A-03-10-00206, issued July 14, 2011).

Pennsylvania Claimed Medicaid Administrative Costs for Provider Training Under Its Restraint
Reduction Initiative (A-03-11-00209, issued July 24, 2012).
                APPENDIX B: STATE AGENCY COMMENTS                                                                   Page 1 of 2

                      STATE OF MARYLAND


                      DHMH
                      Maryland Department of Health and Mental Hygiene
                      Office of the Inspector General, Thomas V. Russell, Inspector General
                      201 W. Preston Street· Baltimore, Maryland 21201
                      Martin O' Malley, Governor - Anthony G. Brown, Lt. Governor - Joshua M . Sharfstein, M.D., Secretary



                                                     August 30, 2012
Mr. Stephen Virbitsky, Regional Inspector General
Audit Services
Office of Audit Services, Region III
Office of the Inspector General
Department of Health and Human Services
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

Re: Report Number: A-03-12-00204

Dear Mr. Virbitsky:

Thank you for the opportunity to comment on the above-referenced audit report, which addresses
the appropriateness of claims made for Title XIX Medicaid matching funds on certain activities
performed by the Maryland Poison Center, a unit of the University of Maryland School of
Pharmacy, in the operation of its telephone hotline.

The audit reviewed claims made by the State on behalf of the Maryland Poison Center in
Calendar Years 2009, 2010 and 2011. The reviewed claims are cited as being unallowable
because they relate to remedial and training services, ~d not for the administration of the
Medicaid program. The report recognizes Centers for Medicare and Medicaid Services (CMS)
approval in February 1994 of the methodology to claim these costs, then refers to a subsequent
(December 1994) State Medicaid Directors letter that specifically excluded remedial services,
public education and provider training from allowable costs - concluding that the State agency
should have discontinued claiming, subsequent to the December 1994 letter.

The audit report recommends that the State agency discontinue all future claims for Maryland
Poison Center costs.

Department's Response:

It is certainly the Department's intention to comply with Centers for Medicare and Medicaid
Services (CMS) guidelines regarding the claiming of Medicaid Title XIX matching funds. We
understand that the recommendations of this report will be


             Toll Free 1-877-4MD-DHMH' TTY for Disabled - Maryland Relay Service 1-800-735-2258 

                                      Web Site: www.dhmh.state.md.us 

                                                                                    Page 2 of 2

Mr. Stephen Virbitsky
Page 2

forwarded to the CMS for their consideration. We will comply with their directions, going
forward, regarding this claiming activity.

The Maryland Poison Center makes a valuable contribution toward safeguarding the health and
well-being of Marylanders. The operation of the telephone hotline minimizes both the severity
and cost of incidents involving toxic substances, including those incidents involving Maryland's
Medicaid-eligible population. Going forward, we would like to explore with CMS other options
that may be available in support of the Maryland Poison Center's mission, within existing
guidelines.

Please contact Thomas V. Russell, Inspector General, at 410-767-5862 if you have any
questions.

                                            Sincerely,


                                             h'L C~"- .:1 ~{00
                                            Joshua M. Sharfstein, M.D.
                                            Secretary
                                                                            C
                                                                                </.e'>c


cc: 	   Patrick Dooley, DHMH, Chief of Staff
        Charles Milligan, DHMH, Deputy Secretary, Health Care Financing
        Thomas V. Russell, DHMH, Inspector General
        Ellwood Hall, DHMH, Assistant Inspector General
        Audrey Parham-Stewart, DHMH, Director, MCPA Finance
        Bruce Anderson, Director, Maryland Poison Center
